           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


            NEW YORK STATE
  DISABILITY DETERMINATION PROGRAM
            INDIRECT COSTS

       May 2012    A-02-11-11135




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      May 21, 2012                                                         Refer To:

To:        Beatrice M. Disman
           Regional Commissioner
            New York

From:      Inspector General

Subject:   New York State Disability Determination Program Indirect Costs (A-02-11-11135)


           OBJECTIVE
           Our objective was to determine whether indirect costs claimed by the New York State
           Office of Temporary and Disability Assistance (OTDA) for Federal Fiscal Years (FFY)
           2008 and 2009 were allowable and properly allocated.

           BACKGROUND
           The Disability Insurance (DI) program 1 provides benefits to wage earners and their
           families in the event the wage earner becomes disabled. The Supplemental Security
           Income (SSI) program 2 provides payments to financially needy individuals who are
           aged, blind, or disabled.

           Under the Social Security Administration’s (SSA) DI and SSI programs, disability
           determination services (DDS) in each State make disability determinations in
           accordance with Federal regulations. 3 Each DDS is responsible for determining
           claimants’ disabilities and ensuring adequate evidence is available to support its
           determinations. In New York State, the Disability Determination Division (DDD)
           oversees four DDS processing centers.


           1
            The DI program was established in 1954 under Title II of the Social Security Act. See Social Security
           Amendments of 1954, Pub.L. No. 83-761, Title I, § 106, 68 Stat. 1052, 1079 (1954), codified at Social
           Security Act, § 220 et seq., 42 U.S.C. § 420 et seq.
           2
            In 1972, Congress enacted the SSI program under Title XVI of the Social Security Act. See Social
           Security Amendments of 1972, Pub. L. No. 92-603, Title III, § 301. 86 Stat. 1329, 1465 (1972), codified at
           Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           3
            Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; see also 20 C.F.R. §§ 404.1601 et
           seq. and 416.1001 et seq.
Page 2 – Beatrice M. Disman


SSA reimburses DDSs for 100 percent of allowable expenditures up to their approved
funding authorization. At the end of each quarter of the fiscal year, each DDS submits a
State Agency Report of Obligations for SSA Disability Programs (Form SSA-4513) to
account for program disbursements and unliquidated obligations.

OTDA is DDD’s parent agency. OTDA comprises program and support components.
The program components administer specific programs, such as the DDD. The support
components provide administrative services that support the program components,
such as accounting, budgeting, and personnel. The costs of the support components
are allocated to the indirect costs of the program components they support.

OTDA’s cost allocation plans (CAP) provide the allocation methodology for the
distribution of support components’ costs to the program components. The Department
of Health and Human Services (HHS), Division of Cost Allocation (DCA), is the
cognizant Federal agency that reviews and approves OTDA’s CAPs.

New York State’s Office of Children and Family Services (OCFS) prepares quarterly
Central Office Cost Allocation Claims (COCAC). The COCAC costs are claimed on a
cash basis of accounting, which means costs are recorded as they are paid. The
COCAC’s report for the DDD shows quarterly direct costs as well as indirect costs
allocated to the DDD from Mainframe Operations, Open Systems Operations,
Administrative Support Overhead, Program Support Overhead, and the DDD Support
Component.

DDD claimed $16.9 million in FFY 2008 and $16.7 in FFY 2009 in indirect costs.
Indirect costs are the total of three items:

•   COCAC – total of four quarterly COCACs,
•   Lump Sum Payments paid to DDD employees and related fringe benefit costs, and
•   Human Services Enterprise Network claims (HSEN).

The amounts of indirect costs attributable to the total COCAC amount, lump-sum
payments, related fringe costs, and HSEN are shown on the State of the Federal
Budget (SFB) form. Appendix C summarizes the amount of indirect costs OTDA
claimed for each category on the SFB for each FFY. The SFB report supports the DDD
claims on Form SSA-4513.

We reviewed each category of indirect costs New York State claimed. Specifically, we
reviewed payroll records and a sample of 140 expenditures, totaling over $55 million,
from the COCAC not related to personnel expenses to determine whether they were
allowable and properly allocated. We reviewed the cost allocation basis and
methodology established in the CAPs for OTDA programs and support components to
determine whether the allocation basis had a rational correlation to the amount of
benefit each program component received. We also determined whether costs were
allocated in the method described in the CAPs. Additional details of our scope and
methodology are in Appendix B.
Page 3 – Beatrice M. Disman


RESULTS OF REVIEW
Some expenditures claimed as indirect costs were unallowable, improperly allocated, or
inaccurate. OTDA claimed $101,070 in unallowable, improperly allocated, or inaccurate
indirect costs in FFY 2008 and $100,321 in FFY 2009, for a total of $201,391. These
costs included expenditures allocated to the incorrect support component, unallowable
charges for depreciable assets, duplicate charges for lump-sum payments and related
fringe-benefit costs, and salary and related fringe-benefit costs for a non-DDD employee
that were charged to the DDD.

OTDA was unable to provide adequate evidence to support $43,269 of indirect costs
allocated in FFY 2008 and $37,946 allocated in FFY 2009. Without adequate evidence,
we were unable to determine whether the indirect costs were allowable, properly
allocated, or accurate.

             Table 1: Unallowable, Not Properly Allocated, Inaccurate, and
                              Unsupported Indirect Costs
                                    FFY 2008                       FFY 2009
                        Unallowable,                     Unallowable,
                         Improperly                        Improperly
                        Allocated, or                    Allocated, or
                         Inaccurate      Unsupported       Inaccurate     Unsupported
   Indirect Costs
                            Costs            Costs           Costs           Costs
COCAC Expenditures          $56,176          $32,011         $64,507         $37,946
Lump-sum Payments
and Fringe Benefits of
                            $32,316               $0         $23,854              $0
DDD Support
Employees
Non-DDD Employee
                            $12,578               $0         $11,960              $0
(12 payroll periods)
HSEN                            $0           $11,258             $0               $0
Total                     $101,070           $43,269       $100,321          $37,946

The DDD Support Component provides administrative support services to the DDD but
does not provide direct program assistance with disability reviews. Although expenses
for this component are considered an indirect cost to the DDD, 100 percent of the
component’s costs are allocated to DDD.

We determined that OTDA did not have written procedures explaining the steps it took
to calculate the indirect costs submitted to SSA to operate the DDD. As such, we asked
OTDA staff to describe the methods it used. OTDA reported to us, in part, that it
claimed indirect costs on a funding year basis for expenditures incurred for the DDD
Support Component, which it stated SSA required that it do. This meant the OTDA
should have claimed indirect costs in the FFY in which they were obligated. While
Page 4 – Beatrice M. Disman


OTDA attempted to calculate costs on a funding-year basis, we determined it claimed
costs on a cash basis, which meant it claimed costs in the FFY they were paid,
regardless of when they were obligated.

EXPENDITURES IN THE COCAC

New York State’s COCAC records all direct and indirect costs incurred by the OTDA
and its different divisions. COCAC records costs on a cash basis of accounting, which
means that it records costs as they are paid. COCAC’s report for the DDD shows
quarterly direct costs, as well as indirect costs allocated to the DDD from support
components, including Mainframe Operations, Open Systems Operations,
Administrative Support Overhead, Program Support Overhead, and the DDD Support
Component.

We reviewed a sample of COCAC costs that were included in the total indirect costs
claimed by OTDA to determine whether the costs were allowable and allocable to the
DDD. We also reviewed the supporting vouchers of the COCAC’s costs to determine
whether the costs charged were accurate and supported. We found that some of the
costs charged to DDD were unallowable, improperly allocated, inaccurate, or
unsupported. Please see Table 2.

   Table 2: Unallowable, Improperly Allocated, Inaccurate, and Unsupported COCAC
                                    Expenditures
                                    FFY 2008                      FFY 2009
                          Unallowable,                Unallowable,
COCAC Expenditures         Improperly                  Improperly
                                          Unsupported                   Unsupported
                          Allocated, or               Allocated, or
                                             Costs                         Costs
                           Inaccurate                  Inaccurate
                              Costs                       Costs
Non-personnel Services        $14,926       $20,166      $62,918             $37,946
Depreciation                  $41,250            $0        $1,589                 $0
Training                            $0      $11,845            $0                 $0
Total                         $56,176       $32,011      $64,507             $37,946

Non-personnel Service Costs

Non-personnel Service (NPS) costs include moving, supplies, materials, telephone
charges, and other costs that are not personnel costs. The COCAC captures NPS
expenditures incurred by OTDA components, and allocates a percentage to the DDD.

We reviewed 140 NPS costs and found that 97 (69 percent) were allowable and
28 (20 percent) were unallowable, improperly allocated, or inaccurate. We were unable
to determine whether the remaining 15 (11 percent) NPS costs were allowable because
there was not enough documentation to support them. Examples of the unallowable,
improperly allocated, inaccurate, and unsupported costs follow. See Appendix D for a
complete list of these costs.
Page 5 – Beatrice M. Disman


Unallowable, Improperly Allocated, or Inaccurate NPS Costs

OTDA charged the DDD $14,926 in unallowable, improperly allocated, or inaccurate
NPS costs in FFY 2008 and $62,918 in FFY 2009. For these costs, OTDA billed the
wrong amount, did not divide costs among its components correctly, or allocated
expenses to the wrong component.

Examples of incorrect billing for expenses include the following.

•   Invoices from the State of New York, Office for Technology (OFT), which bills OTDA
    for information technology services including mainframe, server, back-up, and
    electronic mail services, contained incorrect calculations. The stated rate multiplied
    by the number of units did not equal the total amount on the invoice.
•   OTDA paid a consultant for the incorrect amount of hours, resulting in an
    overpayment.

Examples of OTDA dividing costs incorrectly among its components include the
following.
•   OTDA incorrectly divided server usage costs among its components. Worksheets
    provided by OTDA to support the division of server usage costs among OTDA
    components displayed a different number of total server units and rate per unit than
    was shown on the invoice. As a result, OTDA allocated DDD more in indirect costs
    than it should have. OTDA staff stated the incorrect and inconsistent charges were
    the result of an error in the spreadsheet formula used to calculate costs for the
    voucher.
•   Itemized charges on an OFT invoice for electronic mail usage did not match the
    costs on the OTDA voucher. Electronic mail service costs are allocated between
    Administrative Support Overhead and another non-Federal OTDA support area.
    OTDA overcharged Administrative Support Overhead for electronic mail services,
    and as a result, over-allocated OFT’s charges for electronic mail services to DDD.

Examples of OTDA’s allocating costs to the wrong component include the following.
•   OFT charged some costs to Open Systems Operations when it should have charged
    them to Mainframe Operations. Based on the approved CAPs, Mainframe
    Operations allocated a lower percentage of its cost to the DDD than Open Systems
    Operations.

•   An expenditure for brochures, posters, booklets, and other materials publicizing
    OTDA programs was allocated to Administrative Support Overhead. 4 In general,
    costs charged to Administrative Support Overhead support the administrative and
    personnel costs in the operation of OTDA programs. It would have been more

4
 OTDA, Administrative Support Overhead, engages in activities that support the staff and administrative
operations of all areas of OTDA. Such activities include accounting, payroll, and personnel services.
Page 6 – Beatrice M. Disman


    appropriate to charge the cost to Program Support Overhead 5 since the promotional
    materials disseminated information about the assistance programs OTDA
    administers. In general, Program Support Overhead costs are program costs that
    support the mission and goals of the public services OTDA administers.

Unsupported NPS Expenditures

We were unable to determine whether $20,166 of NPS costs in FFY 2008 and
$37,946 in FFY 2009 were allowable and properly allocated because we did not receive
any documentation, or received insufficient documentation, from OTDA to support them.

Examples of insufficient documentation include the following.
•   One cost for maintenance was allocated to more than one OTDA component, but
    documentation provided by OTDA did not explain why each component was
    allocated the percentage it was.
•   We did not receive timesheets to support an invoice for consultant work we selected
    for our review. OTDA supported other expenditures for consultant work with
    timesheets.

DEPRECIATION

We reviewed a list of nine assets OTDA acquired in FFYs 2008 and 2009, which
included a photocopier and information and technology equipment, to determine
whether they were depreciated correctly. Per the Federal Financial Accounting
Standard No. 6, Accounting for Property, Plant, and Equipment, 6 agencies must
recognize the cost of assets through depreciation. OTDA claimed both the original
purchase price and the depreciation expense for four of the assets. Accordingly, SSA
was charged twice for the cost of these assets.

OCFS reported to us that it planned to take corrective action and return $41,250 for
FFY 2008 and $1,589 for FFY 2009 that was initially claimed as the purchase prices of
the assets. The cost of these assets will depreciate over a 5-year period from the date
of acquisition.

TRAINING

DDD was allocated $11,845 for FFY 2008 training costs from Administrative Support
Overhead. The documentation and explanations provided by State staff did not provide

5
  OTDA, Program Support Overhead, engages in activities that support other OTDA organizations
responsible for the goals and direction of the assistance programs that OTDA administer.
6
 Federal Accounting Standards Advisory Board, Accounting for Property, Plant, and Equipment, General
Property, Plant, and Equipment, Statement of Federal Financial Accounting Standards 6, Chapter 2:
Property, Plant, And Equipment, Expense Recognition, pages 16-17, Paragraphs 35 and 36. (Issued
November 30, 1995, effective for periods beginning after September 30, 1997).
Page 7 – Beatrice M. Disman


sufficient evidence to ensure that OTDA staff received training equal to the amount
allocated to OTDA’s Administrative Support Overhead component. For example, the
vouchers provided did not identify the specific training classes offered or the staff or unit
that benefitted from the training. Without this support, we could not verify that the
training costs should be charged to Administrative Support Overhead.

UNLIQUIDATED OBLIGATIONS

OTDA recorded $4.4 million on the FFY 2008 SSA-4513 as an unliquidated obligation.
Similarly, OTDA recorded $5.8 million on the FFY 2009 SSA-4513 as an unliquidated
obligation. State agencies should provide documentation on the status of unliquidated
obligations with the quarterly Form SSA-4513. 7 Documentation to support the
unliquidated obligations was not attached to the Forms SSA-4513, and OTDA did not
separately provide SSA with documentation to support the amount of unliquidated
obligations. In response, OTDA stated it will provide SSA support for unliquidated
obligations on the SSA-4513.

LUMP-SUM PAYMENTS AND FRINGE BENEFITS OF DDD SUPPORT COMPONENT
EMPLOYEES

Lump-sum payments for accrued leave were paid to individuals who had separated
from the DDD or DDD Support Component. These payments were 100-percent
allocable to the DDD as an indirect cost. Fringe-benefit payments are computed as a
percentage of the lump-sum payments.

OTDA claimed the same lump-sum payments for the DDD Support Component on the
SSA-4513 twice. OTDA claimed lump-sum payments for the DDD Support Component
through the COCAC line of the SFB totaling $22,469 for FFY 2008 and $16,750 for
FFY 2009. It also claimed these same amounts in the lump-sum payment line of the
SFB. OTDA uses the SFB to support the SSA-4513, so any duplicate charges recorded
in the SFB are included on the SSA-4513. OTDA also claimed the same fringe-benefit
costs of the lump-sum payments, totaling $16,951, twice.

OTDA indicated that it planned to correct its method of claiming lump-sum payments
paid to the DDD Support Component and adjust the SSA-4513s for FFY 2008 and
FFY 2009 accordingly.

PERSONNEL SERVICES AND FRINGE BENEFITS OF DDD SUPPORT
EMPLOYEES

DDD support staff provides the DDD administrative support services. For example, the
DDD had approximately 900 employees, which requires a dedicated human resource
and personnel department to support its administrative needs. The DDD support staffs’


7
 SSA, POMS, DI 39506.203, Updating and Reconciling Unliquidated Obligations. (Effective
March 12, 2002)
Page 8 – Beatrice M. Disman


salaries and fringe benefits are considered an indirect cost, which SSA reimburses
100 percent. DDD support staff has a unique charge code to distinguish it from other
State employees.

We reviewed payroll data for the six payroll periods with the highest dollar amount in
each FFYs 2008 and 2009, for a total of 12 payroll periods. We found the salary of one
employee should not have been claimed as a DDD-related cost. The employee’s
charge code was incorrectly annotated as the DDD Support Component charge code.
Because of this error, the DDD claimed $8,747 in FFY 2008 and $8,441 in FFY 2009,
totaling $17,188, in unallowable personnel services costs for the 12 payroll periods we
reviewed. The employee’s fringe-benefit costs of $7,350 for the 12 payroll periods we
reviewed were also inappropriately charged to the DDD.

OTDA indicated that it planned to correct the charge code of the employee and adjust
personnel costs accordingly.

CLAIMING DDD SUPPORT COMPONENT COSTS

OTDA relies on COCAC as the source of indirect costs incurred by the DDD. COCAC
accounts for almost 98 percent of indirect costs claimed, with lump-sum payments and
fringe benefits on those payments, and HSEN accounting for the remaining indirect
costs. Expenditures from support components are recorded on a cash basis in the
COCAC. OTDA used COCAC information to calculate the cash-based costs for the
DDD on the SFB.

COCAC includes the DDD Support Component’s allocated costs to the DDD. The DDD
Support Component provides administrative support services to the DDD and does not
provide direct program assistance with disability reviews. Although expenses for this
component are considered an indirect cost to the DDD, 100 percent of the component’s
costs is allocated to DDD. OTDA reported SSA requires that it draw reimbursement for
expenditures incurred by the DDD Support Component on a funding year basis.

OTDA was unable to provide a written description of the methods it used to calculate
total indirect costs. As OTDA described the process to us, it computes all FFY costs
obligated by the DDD Support Component in a funding year and reports these
separately on the SFB. OTDA did not use COCAC, or the accounting records used to
create the COCAC, to compute the total funding year expenditures for the DDD Support
Component. Instead, OTDA used other accounting records to compute the funding
year costs for the DDD Support Component. OTDA then subtracted the DDD Support
Component’s total funding year expenditures from the total cash-based costs of the four
quarterly COCAC reports. OTDA records the remaining indirect cost amount as a
separate line item on the SFB. Since OTDA includes both the funding year costs it
subtracted from the COCAC and the remaining cash-based costs in the COCAC on the
SFB, it is in effect including all cash-based costs. Since the SFB is used to support the
indirect costs claimed on the SSA-4513, OTDA claims the costs incurred by the DDD
Support Component on a cash basis.
Page 9 – Beatrice M. Disman


To accurately claim costs for the DDD Support Component on a funding-year basis on
the SFB, OTDA would need to subtract all the cash-based costs incurred by the DDD
Support Component from the COCAC costs before they are recorded on the SFB, and
then include the component’s funding year based costs on the SFB. Because costs
were claimed on a cash basis, the indirect costs reported on the SSA-4513 did not
accurately reflect the relationship of the costs obligated to support the DDD’s operations
and the funds appropriated to fund the DDD in a given FFY. Additionally, we reviewed
the DDD Support Component’s funding year expenditures for NPS for FFYs 2008 and
2009. We found that OTDA did not always record obligations in the appropriate fiscal
year when recording funding year costs. OTDA acknowledged these errors and will
take actions to correct its records.

HSEN

The HSEN project’s objective was to modernize technologies and telecommunications
that provided New York’s service agencies better access to State-wide information. The
project began in 2003 and was completed in 2008. According to the CAP, costs should
be allocated to OTDA based on the proportional relationship between the number of
identified HSEN users in each New York State benefiting service agency. HSEN costs
should further be allocated to program components within OTDA based on an
established allocation basis.

On the March 31, 2011 SFB, the DDD claimed $11,258 in unliquidated obligations for
HSEN charges in FFY 2008. OTDA did not provide us sufficient documentation to
support the allocation basis used to allocate the HSEN costs to DDD. As such, the
HSEN costs allocated to the DDD were unsupported.

CONCLUSION AND RECOMMENDATIONS
OTDA claimed $201,391 in unallowable, improperly allocated, or inaccurate costs in
FFYs 2008 and 2009. OTDA may have claimed additional unallowable costs. We
found that OTDA claimed the salary of a non-DDD employee as part of the costs
claimed for the DDD Support Component in the 12 pay periods we reviewed. OTDA
may have also claimed this employee’s salary in other pay periods in FFYs 2008 and
2009. Additionally, OTDA was unable to provide adequate evidence to support
$81,215 in indirect costs in FFYs 2008 and 2009. Without adequate evidence, we were
unable to determine whether the indirect costs were allowable or properly allocated.
We also found that OTDA did not accurately calculate the funding year costs of the
DDD Support Component.

Additionally, we were unsure why the Component’s personnel and related costs were
claimed as an indirect cost since they only provided administrative services to the DDD
and 100 percent of their salaries were claimed and reimbursed by SSA. All other DDD
employee salaries were claimed as direct costs.
Page 10 – Beatrice M. Disman


Lastly, we did not always receive clear and consistent descriptions from OTDA staff on
the methods used to claim indirect costs. While the staff assisted us throughout our
audit, staff sometimes had different understandings of how costs were calculated. The
lack of written procedures added to the difficulty of gaining a clear understanding of the
State’s processes.

We recommend that SSA:

1. Instruct OTDA to refund the $201,391 in unallowable, improperly allocated, or
   inaccurate costs we identified.

2. Work with OTDA to determine whether it claimed additional unallowable costs
   related to the non-DDD employee salary included as part of the DDD Support
   Component’s claimed costs.

3. Instruct OTDA to refund the $81,215 in unsupported costs if it cannot provide
   evidence to support them.

4. Determine whether the salaries of the DDD Support Component employees should
   be claimed as a direct cost and instruct OTDA accordingly.

5. Work with OTDA to establish a written set of mutually agreed upon procedures for
   the accounting, reporting, and drawing down of attributable funds claimed on the
   SSA-4513s.

AGENCY AND OTDA COMMENTS AND OIG RESPONSE
SSA agreed with the recommendations. See Appendix E for the full text of SSA’s
comments to our report.

OTDA agreed to make the appropriate adjustments to the funds it claimed in response
to our first three recommendations. OTDA qualified its response to Recommendation 3
by stating that it believed it provided supporting documentation, and where it agrees it
did not, it would make claiming adjustments. We found that the documentation provided
to us did not sufficiently support the costs allocated to the DDD.

In response to Recommendation 4, OTDA commented that reporting the DDD Support
Component as an indirect cost dated back many years. Since DDD Support
Component staff work within the DDD and only support DDD employees, we concluded
that it would be appropriate to charge their costs as a direct cost.

In response to Recommendation 5, the State responded, in part, that OTDA has written
procedures for the accounting, reporting, and drawing down of funds claimed that are
available to SSA for review. We requested written documentation of OTDA’s
procedures at the beginning of the audit engagement which OTDA did not provide.
Absent documentation, we had numerous discussions with OTDA staff about its
Page 11 – Beatrice M. Disman


procedures. Throughout the discussions, OTDA staff did not indicate documentation
existed or offer to provide documentation on its procedures. To date, OTDA has not
provided documentation on its procedures. Accordingly, we continue to conclude that
OTDA does not have documentation on the accounting, reporting, and drawing down of
attributable funds claimed on the SSA-4513s.

See Appendix F for the full text of OTDA’s comments to our report.




                                        Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – State of the Federal Budget - Indirect Cost Sub-categories
APPENDIX D – Central Office Cost Allocation Claim: Non-personnel Services
             Expenditures
APPENDIX E – Agency Comments
APPENDIX F – Office of Temporary and Disability Assistance Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
CAP           Cost Allocation Plan
C.F.R.        Code of Federal Regulations
COCAC         Central Office Cost Allocation Claim
DCA           Division of Cost Allocation
DDD           Division of Disability Determinations
DDS           Disability Determination Services
DI            Disability Insurance
FFY           Federal Fiscal Year
HHS           Department of Health and Human Services
HSEN          Human Service Enterprise Network
NPS           Non-Personnel Service
OCFS          Office of Children and Family Services
OFT           Office for Technology
OIG           Office of Inspector General
OMB           Office of Management and Budget
OTDA          Office of Temporary and Disability Assistance
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SFB           State of the Federal Budget
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code
                                                                              Appendix B

Scope and Methodology
To meet our objective, we:

•   Reviewed the indirect costs claimed by Office of Temporary and Disability
    Assistance (OTDA) on its Form SSA-4513 and State of the Federal Budget (SFB) for
    Federal Fiscal Years (FFY) 2008 and 2009 as of March 31, 2011.
•   Reviewed Office of Management and Budget (OMB) Circular A-87, Cost Principles
    for State, Local and Indian Tribal Governments; the Social Security Administration’s
    (SSA) Program Operations Manual System; and the Department of Health and
    Human Services’ (HHS) approved Cost Allocation Plan (CAP).
•   Reviewed the CAPs for each support component that allocated costs to the
    New York Division of Disability Determinations (DDD) and determined whether the
    methodology was appropriate. If that support component had indirect costs from
    another support component, we reviewed the CAP for that area as well.
•   Reviewed the New York State Single Audit Reports for the period April 1, 2008
    through March 1, 2010. 1
•   Met with personnel at the New York State OTDA, the New York State Office of
    Children and Family Services (OCFS), SSA’s New York Regional Office, and HHS’
    Division of Cost Allocation.
•   Obtained an understanding of the accounting data and procedures used to prepare
    the quarterly Central Office Cost Allocation Claims (COCAC) and SFB. This
    involved an understanding of when revenues, expenditures, transfers, and the
    related assets and liabilities were recognized in the accounts and reported in the
    accounting documents.
•   Determined the amount of fringe benefits on personnel costs. Fringe benefits were
    45.53 percent of personnel costs that were paid for April 1, 2007 through
    March 31, 2008, 42.67 percent of personnel costs for April 1, 2008 through
    March 31, 2009, and 41.49 percent for April 1, 2009 through March 31, 2010.
•   Reviewed the Statewide Cost Allocation Plan to ensure amounts charged to OTDA
    for New York State-wide indirect costs were correct.
•   Selected two training projects from OCFS and OTDA to determine whether costs
    claimed in a selected quarter were accurate, allowable, and allocable.


1
 SSA OIG, Management Advisory Report: Single Audit of the State of New York for the Fiscal Year
Ended March 31, 2009 (A-77-11-00011), May 10, 2011 reported indirect costs were charged to various
Federal agencies, including SSA, based on CAP methodologies that were pending approval by HHS’
DCA. HHS issued an OIG Clearance Document in May 2011 in response to the finding in the New York
State Singe Audit Report for the Fiscal Year Ending March 31, 2009.


                                                B-1
•   Selected four support components that charged indirect expenses to the DDD. We
    added salaries for individuals for three quarters in FFYs 2008 and 2009 to ensure
    the total salaries equaled COCACs salaries.
•   Reconciled the accounting records to the Non-Personnel Services costs claimed by
    OTDA on its SFB for FFYs 2008 and 2009.
•   Reconciled lump-sum payment amounts for the DDD indirect and direct personnel.
    Selected a sample of 12 lump-sum payments and ensured they were calculated
    correctly.
•   Reviewed timesheets for a sample of 13 personnel for 2 pay periods to ensure their
    salaries were computed correctly.
•   Reviewed a sample of 140 expenditures for FFYs 2008 and 2009 ranging from
    ($84,240) to $4,750,000, totaling over $55 million. We selected expenditures from a
    population cost of $97.1 million. We reviewed

          60 expenditures for the DDD Support unit,
          40 expenditures for the Administrative Support unit,
          12 expenditures for the Mainframe Operations unit,
          12 expenditures for the Open Systems Operations unit, and
          16 expenditures for the Program Support unit.

•   Reviewed nine assets, totaling $3,450,238 that OTDA acquired during FFYs 2008
    and 2009 to determine whether proper accounting procedures were followed in
    recording depreciation.

The COCAC system operates through a step-down allocation process, which resulted in
reallocation of costs to other support areas and finally to the DDD program account.
Our determinations of questioned costs represented the final allocation to the DDD.

We performed our audit work at the OTDA and at DDD in Albany, New York, and the
New York Regional Office between January and November 2011. We determined the
data used in this report were sufficiently reliable given the review objective and intended
use. The entities audited were the OTDA and the DDD in the Office of the Deputy
Commissioner for Center for Specialized Services. We conducted our audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                            B-2
                                                                             Appendix C

State of the Federal Budget – Indirect Costs
Sub-categories

                     Indirect Costs Claimed by
            New York State Office of Temporary Disability
                     and Disability Assistance
                      Federal Fiscal Year 2008
                            $16,547,025
                      Lump Sum Payments
                        & Related Fringe
                         Benefit Costs
                        $399,776 (2.4%)                   Human Service
                                                        Enterprise Network
                                                          $11,258 (0.1%)




                                            Central Office Cost
                                             Allocation Claim
                                           $16,135,991 (97.5%)




The total indirect cost on the State of the Federal Budget (SFB) is $16,879,341. The
Central Office Cost Allocation Claim’s (COCAC) amount shown in this pie graph
matches the claims from the four quarterly COCACs reports. The indirect cost of
$16,547,025 shown on this pie graph does not include $300,000 of potential expenses
that Office of Temporary and Disability Assistance (OTDA) has yet to deobligate, and
$32,316 of unallowable lump-sum payments and related fringe-benefit costs.

                                             C-1
                          Indirect Costs Claimed by
                           New York State Office of
                      Temporary Disability and Assistance
                           Federal Fiscal Year 2009
                                 $16,671,011


                           Lump Sum Payments
                             & Related Fringe
                              Benefit Costs
                             $365,649 (2.2%)




                                           Central Office Cost
                                            Allocation Claim
                                          $16,305,362 (97.8%)




                 No Human Service Enterprise Network Costs in FFY 2009



The total indirect cost on the SFB is $16,693,922. The indirect cost of
$16,671,011 shown on this pie graph does not include $22,906 of unallowable lump-
sum payments and related fringe-benefit costs. The difference of additional $5 is due to
rounding of individual line items on the SFB.




                                            C-2
                                                                             Appendix D

Central Office Cost Allocation Claim: Non-
personnel Services Expenditures
Non-personnel Service (NPS) costs include moving costs, supplies, materials,
telephone charges, and other costs that were not personnel costs. We reviewed
140 expenditure items that were recorded on 128 unique vouchers. 1 The tables below
are the vouchers with examples of the unallowable, improperly allocated, inaccurate,
and unsupported costs for Federal Fiscal Years (FFY) 2008 and 2009.

                  FFY 2008 NPS Expenditure Items Reviewed for
       Unallowable, Improperly Allocated, Inaccurate, or Unsupported Costs
     NPS          Reason NPS Cost was         Unallowable Cost, Unsupported
    Voucher     Unallowable, Improperly           Improperly          Cost
                 Allocated, Inaccurate or        Allocated or
                      Unsupported              Inaccurate Cost
       1          Did not receive support                          ($121.80)
                      documentation
       2          Did not receive support                           ($44.69)
                      documentation
       3          Did not receive support                            $6.35
                      documentation
       4          Did not receive support                           $984.87
                      documentation
       5          Did not receive support                            $6.06
                      documentation
       6          Did not receive support                           $110.37
                      documentation
       7      Allocated costs to an incorrect     $11,707.80
                    support component
       8      Transfer of funds did not match                        $26.74
                      itemized costs
       9      Transfer of funds did not match                       $589.12
                      itemized costs




1
  We selected 140 NPS cost items and reviewed each one as a separate item. We reported percentages
based on 140 NPS costs reviewed. We reviewed 12 vouchers for which we selected multiple cost
items each as part of our sample. There were 128 unique vouchers. We found 35 of the 128 vouchers
had unallowable, inaccurate, and unsupported costs.

                                               D-1
               FFY 2008 NPS Expenditure Items Reviewed for
    Unallowable, Improperly Allocated, Inaccurate, or Unsupported Costs
  NPS          Reason NPS Cost was            Unallowable Cost, Unsupported
 Voucher      Unallowable, Improperly            Improperly         Cost
              Allocated, Inaccurate or           Allocated or
                    Unsupported                Inaccurate Cost
   10       Insufficient documentation to                        $13,104.58
            support Office for Technology
             (OFT) Data Center charges
   11       Insufficient documentation to                         $5,504.75
                 support moving cost
   12         OFT Data Center Billing –            ($923.39)
           Incorrect division of information
              technology (IT) costs and
               incorrect email charges
   13         OFT Data Center Billing –            ($886.41)
          Incorrect rate used for billing and
               incorrect email charges
   14         OFT Data Center Billing -           ($1,047.57)
          Incorrect division of IT costs and
               incorrect email charges
   15         OFT Data Center Billing -           ($1,034.32)
          Incorrect division of IT costs and
               incorrect email charges
   16         OFT Data Center Billing -           ($1,010.80)
          Incorrect division of IT costs and
               incorrect email charges
   17         OFT Data Center Billing -           $16,636.55
          Incorrect rate used for billing and
               incorrect email charges
   18         OFT Data Center Billing –           ($8,515.96)
          Incorrect division of IT costs and
               incorrect email charges
  Total                                           $14,925.90     $20,166.35
Note: All dollar amounts shown is the allocated cost to the DDD. Amounts stated in the COCAC NPS
      Costs section of the report maybe $1 more or less because of rounding.

              FFY 2009 NPS Expenditure Items Reviewed for
    Unallowable, Improperly Allocated, Inaccurate, or Unsupported Costs
 NPS          Reason NPS Cost was             Unallowable     Unsupported
Voucher      Unallowable, Improperly              Cost,            Cost
             Allocated, Inaccurate or          Improperly
                   Unsupported                Allocated or
                                            Inaccurate Cost
   1          Did not receive support                           $1,005.10
                   documentation


                                             D-2
                FFY 2009 NPS Expenditure Items Reviewed for
    Unallowable, Improperly Allocated, Inaccurate, or Unsupported Costs
 NPS            Reason NPS Cost was              Unallowable   Unsupported
Voucher        Unallowable, Improperly                Cost,        Cost
               Allocated, Inaccurate or           Improperly
                      Unsupported                Allocated or
                                               Inaccurate Cost
   2            Did not receive support                           $24.96
                     documentation
   3         Missing timesheet to support                         $7,200
                  consultant charges
   4      Incorrect consultant time charges           ($75)
             resulting in an underpayment
   5      Incorrect consultant time charges           $540
              resulting in an overpayment
   6         Insufficient documentation to                      $29,716.39
               support maintenance cost
   7      OFT Data Center Billing - Incorrect     $13,887.23
           rate used for billing and incorrect
                      email charges
   8      OFT Data Center Billing - Incorrect       ($42.92)
           division of IT costs and incorrect
                      email charges
   9      OFT Data Center Billing - Incorrect      $1,069.75
           division of IT costs and incorrect
                      email charges
  10      OFT Data Center Billing - Incorrect      $1,603.26
           division of IT costs and incorrect
                      email charges
  11      OFT Data Center Billing - Incorrect      $1,128.64
           division of IT costs and incorrect
                      email charges
  12      OFT Data Center Billing - Incorrect      $1,145.78
           rate used for billing and incorrect
                      email charges
  13      OFT Data Center Billing - Incorrect      ($344.24)
                  rate used for billing
  14      OFT Data Center Billing - Incorrect     $12,915.91
           rate used for billing and incorrect
                      email charges
  15      OFT Data Center Billing - Incorrect     $13,838.11
           rate used for billing and incorrect
                      email charges
  16      OFT Data Center Billing - Incorrect     $15,442.45
           rate used for billing and incorrect
                      email charges


                                   D-3
                FFY 2009 NPS Expenditure Items Reviewed for
    Unallowable, Improperly Allocated, Inaccurate, or Unsupported Costs
 NPS            Reason NPS Cost was             Unallowable   Unsupported
Voucher       Unallowable, Improperly               Cost,          Cost
               Allocated, Inaccurate or          Improperly
                     Unsupported                Allocated or
                                              Inaccurate Cost
  17      OFT Data Center Billing - Incorrect     $1,809.21
           division of IT costs and incorrect
                     email charges
 Total                                           $62,918.18     $37,946.45
Note: All dollar amounts shown is the allocated cost to the DDD. Amounts stated in the COCAC NPS
      Costs section of the report maybe $1 more or less because of rounding.




                                              D-4
                        Appendix E

Agency Comments




                  E-1
                              SOCIAL SECURITY
MEMORANDUM                                                             Refer To:

Date:       April 20, 2012

To:         Patrick P. O’Carroll, Jr.
            Inspector General

From:       Regional Commissioner
            New York

Subject: New York State Disability Determination Program Indirect Cost Review
         (A-02-11-11135) - (Your Memorandum Dated March 22, 2012)


The New York Region appreciates the opportunity to comment on the draft report to determine
whether indirect costs claimed by the New York State Office of Temporary and Disability
Assistance for Federal Fiscal Years 2008 and 2009 were allowable and properly allocated.

The five (5) recommendations for SSA included in your draft audit of this review are:

   1. SSA should instruct the New York State (NYS) Office of Temporary and Disability
      Assistance (OTDA) to refund the $201,391 in unallowable, not properly allocated, or
      inaccurate costs we identified.

   2. SSA should work with NYS OTDA to determine whether it claimed additional
      unallowable costs related to the non-DDD employee salary included as part of the DDD
      Support Component’s claimed costs.
      3. SSA should instruct NYS OTDA to refund the $81,215 in unsupported costs if it cannot
         provide evidence to support them.
      4. SSA should determine whether the salaries of the DDD Support Component employees
         should be claimed as a direct cost and instruct NYS OTDA accordingly.
   5. SSA should work with NYS OTDA to establish a written set of mutually agreed upon
      procedures for the accounting, reporting, and drawing down of attributable funds claimed
      on the SSA-4513s.
The recommendations cited appear to be reasonable and justifiable. They will assist us in further
improving the NYS OTDA adherence to SSA policies and regulations.


                                              E-2
If you have any questions, they may be directed to Joseph Cafaro, Director, at (212) 264-7250, or
Dinah Laurich, Disability Program Administrator in the Center for Disability Programs at
212-264-7251.


                                                           /s/
                                                    Beatrice M. Disman




                                              E-3
                                     Appendix F

Office of Temporary and Disability Assistance
Comments




                      F-1
                                          NEW YORK STATE
                         OFFICE OF TEMPORARY AND DISABILITY ASSISTANCE
                                      40 NORTH PEARL STREET
                                   ALBANY, NEW YORK 12243-0001

                                            Andrew M. Cuomo
                                                Governor

                                                        May 3, 2012

Mr. Timothy Nee
Director, New York Audit Division
Social Security Administration
Office of the Inspector General
26 Federal Plaza, Room 3737
New York, NY 10278

Dear Mr. Nee:

The New York State Office of Temporary and Disability Assistance (OTDA) has reviewed the
draft report, New York State Disability Determination Program Indirect Costs (A-02-11-11135),
prepared by your office as a result of your review of indirect costs claimed during Federal Fiscal
Years 2008 and 2009.

Enclosed are our official comments on the findings, recommendations, and conclusion of the
draft report. OTDA follows stringent procedures for accounting, reporting and claiming indirect
costs. We do not fully agree with the $282,606 in unallowable and unsupported costs identified
by this report. Having said that, we are pleased with the fact that the $282,606 amount
comprises less than one percent of the approximately $33.5 million in indirect costs claimed
during the period under review. We believe that is an indication of the strong internal controls
we have in place.

If you have any questions or need additional information, please contact me or Valerie Boyd at
(518) 402-6855.

                                                        Sincerely,



                                                        Kevin Kehmna, Director
                                                        Bureau of Audit and Quality Improvement
Attachment

cc: Elizabeth Berlin, Office of Temporary and Disability Assistance
    Nancy Maney, Office of Temporary and Disability Assistance
    Wilma Brown Phillips, Office of Temporary and Disability Assistance
    Linda Glassman, Office of Temporary and Disability Assistance
    Gloria Toal, Office of Temporary and Disability Assistance
    Maria Vidal, Office of Temporary and Disability Assistance
    Susan Costello, Office of Children and Family Services

                         ''providing temporary assistance for permanent change"



                                                  F-2
Response to SSA OIG Audit

Unallowable, Not Properly Allocated or Inaccurate NPS Costs:

SSA Result - OTDA charged the DDD $14,926 in unallowable, not properly allocated, or
inaccurate NPS costs in FFY 2008 and $62,918 in FFY 2009. For these costs, OTDA billed the
wrong amount, did not divide costs among its components correctly, or allocated expenses to
the wrong component.

OTDA Response - OTDA agrees with this finding. We will work with the Office of Children and
Family Services (OCFS) to adjust Central Office Cost Allocation Claims for FFY 2008 and FFY
2009, shifting these costs to the appropriate allocation methodology.

Unsupported NPS Expenditures:

SSA Result - We were unable to determine whether $20,166 of NPS costs in FFY 2008 and
$37,946 in FFY 2009 were allowable and properly allocated because we did not receive any
documentation, or received insufficient documentation, from OTDA to support them.

OTDA Response - OTDA agrees with this finding. We will work with the Office of Children and
Family Services (OCFS) to adjust Central Office Cost Allocation Claims for FFY 2008 and FFY
2009, shifting these costs to the appropriate allocation methodology.

Depreciation:

SSA Result - We reviewed a list of nine assets OTDA acquired in FFYs 2008 and 2009, which
included a photocopier and information and technology equipment, to determine whether they
were depreciated correctly. Per the Federal Financial Accounting Standard No. 6, Accounting
for Property, Plant, and Equipment, agencies must recognize the cost of assets through
depreciation. OTDA claimed both the original purchase price and the depreciation expense for
four of the assets. Accordingly, SSA was charged twice for the cost of these assets. OCFS
reported to us that it planned to take corrective action and return $41,250 for FFY 2008 and
$1,589 for FFY 2009 that was initially claimed as the purchase prices of the assets. The cost of
these assets will depreciate over a 5-year period from the date of acquisition.

OCFS Response - The adjustments requested by the SSA-OIG auditors were made in COCAC
adjustments numbers 11 -T7 for the October-December 2008 period in the amount of $1,618
(amount referenced by auditors of $1,589 requires clarification) related to the Disability
Determinations Program and 11-T6 for the October to December 2007 period in the amount of
$41,792 (amount referenced by auditors of $41,250 requires clarification) related to the
Disability Determinations program. These adjustments were given to SSA-OIG auditors at a
meeting we attended at OTDA on August 25, 2011.

Training:

SSA Result - DDD was allocated $11,845 for FFY 2008 training costs from Administrative
Support Overhead. The documentation and explanations provided by State staff did not provide
sufficient evidence to ensure that OTDA staff received training equal to the amount allocated to
OTDA's Administrative Support Overhead component. For example, the vouchers provided did
not identify the specific training classes offered or the staff or unit that benefitted from the



                                              F-3
training. Without this support, we could not verify that the training costs should be charged to
Administrative Support Overhead.

OCFS Response - In our opinion, the documentation provided to the auditors does identify the
specific training classes offered and the staff or unit that benefitted from the training. In addition
to the vouchers provided, OCFS also provided copies of the signed work-plan (shows the type
of training/classes) and the training roster listing the trainees and their organization. Please
note that the vouchers OCFS receives relating to training contracts do not list the attendees
and/or the specific training classes. That information is contained in the other documentation
that was previously provided.

Unliquidated Obligations:

SSA Result - OTDA recorded $44 million on the FFY 2008 SSA-4513 as an unliquidated
obligation. Similarly, OTDA recorded $5.8 million on the FFY 2009 SSA-4513 as an
unliquidated obligation. State agencies should provide documentation on the status of
unliquidated obligations with the quarterly Form SSA-4513. Documentation to support the
unliquidated obligations was not attached to the Forms SSA-4513, and OTDA did not separately
provide SSA with documentation to support the amount of unliquidated obligations. In
response, OTDA stated it will provide SSA support for unliquidated obligations on the SSA-
4513.

OTDA Response - Unliquidated obligations are fully supported by the Central Office Cost
Allocation Claim. We have previously never submitted the addendum to the SSA-4513 and to
date have not been notified by SSA that this was required. We are uncertain that the addendum
is necessary. OTDA will submit the addendum in the future as requested by SSA.

Lump-Sum Payments and Fringe Benefits of DDD Support Component Employees:

SSA Result - OTDA claimed the same lump-sum payments for the DDD Support Component on
the SSA-4513 twice. OTDA claimed lump-sum payments for the DDD Support Component
through the COCAC line of the SFB totaling $22,469 for FFY 2008 and $16,750 for FFY 2009.
It also claimed these same amounts in the lump sum payment line of the SFB. OTDA uses the
SFB to support the SSA-4513, so any duplicate charges recorded in the SFB are included on
the SSA-4513. OTDA also claimed the same fringe benefit costs of the lump-sum payments,
totaling $16,951, twice. OTDA indicated that it planned to correct its method of claiming lump-
sum payments paid to the DDD Support Component and adjust the SSA-4513s for FFY 2008
and FFY 2009 accordingly.

OTDA Response - OTDA agrees with this finding. We will adjust the SSA-4513's for FFY 2008
and FFY 2009, and subsequent years. OTDA will update our written procedures to ensure we
do not claim duplicate charges for the lump-sum payments and related fringe benefits.

Personnel Services and Fringe Benefits of DDD Support Employees:

SSA Result - We reviewed payroll data for the six payroll periods with the highest dollar amount
in each FFYs 2008 and 2009, for a total of 12 payroll periods. We found the salary of one
employee should not have been claimed as a DDD-related cost. The employee's charge code
was incorrectly annotated as the DDD Support Component charge code. Because of this error,
the DDD claimed $8,747 in FFY 2008 and $8,441 in FFY 2009, totaling $17,188, in unallowable
personnel services costs for the 12 payroll periods we reviewed. The employee's fringe-benefit


                                                 F-4
costs of $7,350 for the 12 payroll periods we reviewed were also inappropriately charged to the
DDD. OTDA indicated that it planned to correct the charge code of the employee and adjust
personnel costs accordingly.

OTDA Response - OTDA agrees with this finding. The employee has been adjusted to the
correct charge code and Central Office Cost Allocation Claims for FFY 2008 and FFY 2009 will
be adjusted so these charges will not be claimed as a DDD related cost.

Claiming DDD Support Component Costs

SSA Result - OTDA was unable to provide a written description of the methods it used to
calculate total indirect costs. As OTDA described the process to us, it computes all FFY costs
obligated by the DDD Support Component in a funding year and reports these separately on the
SFB. OTDA did not use COCAC, or the accounting records used to create the COCAC, to
compute the total funding year expenditures for the DDD Support Component. Instead, OTDA
used other accounting records to compute the funding year costs for the DDD Support
Component. OTDA then subtracted the DDD Support Component's total funding year
expenditures from the total cash-based costs of the four quarterly COCAC reports. OTDA
records the remaining indirect cost amount as a separate line item on the SFB. Since OTDA
includes both the funding year costs it subtracted from the COCAC and the remaining cash-
based costs in the COCAC on the SFB, it is in effect including all cash-based costs. Since the
SFB is used to support the indirect costs claimed on the SSA-4513, OTDA claims the costs
incurred by the DDD Support Component on a cash basis.

To accurately claim costs for the DDD Support Component on a funding-year basis on the SFB,
OTDA would need to subtract all the cash-based costs incurred by the DDD Support
Component from the COCAC costs before they are recorded on the SFB, and then include the
component's funding year based costs on the SFB. Because costs were claimed on a cash
basis, the indirect costs reported on the SSA-4513 did not accurately reflect the relationship of
the costs obligated to support the DDD's operations and the funds appropriated to fund the DDD
in a given FFY. Additionally, we reviewed the DDD Support Component's funding year
expenditures for NPS for FFYs 2008 and 2009. We found that OTDA did not always record
obligations in the appropriate fiscal year when recording funding year costs.             OTDA
acknowledged these errors and will take actions to correct its records.

OTDA Response - OTDA maintains process documentation as well as step-by-step written
instructions for reporting indirect costs which is available to SSA for review and validation; to our
knowledge, OTDA provided all documentation requested in the course of the audit related to
this process. OTDA claims indirect costs through our Central Office Cost Allocation Claim
(COCAC) which is on a cash basis. The cash basis COCAC is also used to claim indirect costs
for several other programs. To claim DDD indirect costs using a different accounting basis
would be inconsistent with the treatment for other Federal awards and would not be in
accordance with OBM Circular A-87.

We agree that there were isolated incidents where obligations were not recorded in the correct
funding year. The expenditures for these obligations will be transferred to the correct funding
years.




                                                F-5
HSEN

SSA Result - On the March 31, 2011 SFB, the DDD claimed $11,258 in unliquidated obligations
for HSEN charges in FFY 2008. OTDA did not provide us sufficient documentation to support
the allocation basis used to allocate the HSEN costs to DDD. As such, the HSEN costs
allocated to the DDD were unsupported.

OTDA Response - OTDA maintains that the documentation provided adequately supports the
allocation of HSEN costs to the DDD program and does not agree with this finding. OTDA has
responded to all questions raised by the SSA OIG auditors and we have received no further
requests for clarification or additional documentation

Conclusion and Recommendations

   1. Instruct OTDA to refund the $201,391 in unallowable, not properly allocated, or
      inaccurate costs SSA OIG identified.

       OTDA Response - OTDA will make the necessary accounting and claiming adjustments
       for amounts in which we are in agreement.

   2. Work with OTDA to determine whether it claimed additional unallowable costs related to
      the non-DDD employee salary included as part of the DDD Support Component's
      claimed costs.

       OTDA Response - OTDA believes the erroneous claim was an isolated incident and it
       should not be concluded that we claimed additional unallowable costs.

   3. Instruct OTDA to refund the $81,215 in unsupported costs if it cannot provide evidence
      to support them.

       OTDA Response - OTDA believes it has provided supporting documentation and where
       it agrees it hasn't will make claiming adjustments.

   4. Determine whether the salaries of the DDD Support Component employees should be
      claimed as a direct cost and instruct OTDA accordingly.

       OTDA Response - DDD and the SSA Regional Office had ongoing discussions in the
       past concerning the categorization of staff and the impact on productivity calculations.
       SSA strongly encouraged DDD to review direct and indirect staff with the goal of
       adjusting these categories consistent with other state Disability Determination Services
       (DDS) offices in order to more accurately reflect productivity. This is consistent with
       SSA policy as staff so identified are performing support tasks (budgeting, fiscal
       reporting, fiscal transactions, personnel management, facility management, purchasing,
       contract management, asset management) not directly related to case processing that
       otherwise would be handled by state parent agencies or other state offices. This action
       puts DDD on a more equal basis in comparison to staffing and PPWY reporting of other
       states. This policy dates back many years and was reviewed and accepted in the
       previous OIG review.




                                             F-6
5. Work with the OTDA to establish a written set of mutually agreed upon procedures for
   the accounting, reporting, and drawing down of attributable funds claimed on the SSA-
   4513s.

   OTDA Response - OTDA maintains that the cash basis COCAC is an accurate and
   appropriate method for claiming indirect costs for DDD and for other Federal awards.
   OTDA has written procedures for the accounting, reporting, and drawing down of funds
   claimed. We acknowledge that the claiming method is complicated and can be
   confusing. OTDA feels that conducting the audit through emails and one-on-one phone
   calls made the process more confusing and led to misunderstandings. We would have
   preferred to have face-to-face meetings or conference calls with the auditors to review
   our work papers and explain our process.




                                         F-7
                                                                         Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division

   Christine Hauss, Audit Manager

Acknowledgments

In addition to those named above:

   Susan Yuen, Program Analyst

   David Mazzola, Audit Manager

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-02-11-11135.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
